 FTA PROCEDURES TO PREVENT
ANTIDEFICIENCY ACT VIOLATIONS
     Federal Transit Administration

      Report Number: FI-2007-047
      Date Issued: May 15, 2007
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Audit of                                                Date:    May 15, 2007
           Procedures to Prevent Antideficiency Act
           Violations, Federal Transit Administration
           Report Number: FI-2007-047
  From:    Rebecca C. Leng                                                            Reply to
                                                                                      Attn. of:   JA-20
           Assistant Inspector General for Financial
            and Information Technology Audits

    To:    Federal Transit Administrator

           This final report presents the results of our review of Federal Transit
           Administration (FTA) actions to prevent Antideficiency Act violations of grants
           funds. We first reported that the mass transit account of the Highway Trust Fund,
           which is used to fund transit formula and discretionary grants, had a negative
           balance of $77 million in fiscal year (FY) 2001.

           A detailed review the following year identified significant internal control
           weaknesses that allowed former FTA employees to use inappropriate accounting
           procedures to conceal overobligations, such as off-setting overobligations against
           available funding in other appropriations accounts and manipulating fund
           liquidation information in the Budget Execution Reports (SF-133) sent to the
           Department of the Treasury and the Office of Management and Budget (OMB). 1

           In June 2003, the Department reported to OMB and Congress that FTA committed
           a violation of the Antideficiency Act. In the Department’s FY 2005 appropriation,
           the House Appropriations Committee directed FTA to report how the agency had
           modified its accounting procedures and practices to prevent recurrence of
           Antideficiency Act violations. The Committee also directed our office to review
           FTA’s new procedures and report to the House and Senate Committees on
           Appropriations on the sufficiency of these new procedures. 2

           1
               OIG report on “Highway Trust Fund Financial Statements for Fiscal Years 2002 and 2001,” FI-2003-015, January
               24, 2003.
           2
               House Report 108-671 accompanying the Departments of Transportation and Treasury and Independent Agencies
               Appropriations Bill, 2005.
                                                                                 2


Our objective was to determine whether FTA has implemented sufficient
accounting procedures and internal controls to prevent future Antideficiency Act
violations in the grants program. We conducted this program audit in compliance
with Generally Accepted Government Auditing Standards as prescribed by the
Comptroller General of the United States, and conducted such tests as we
considered necessary to uncover waste, fraud, or abuse. Our scope and
methodology are described in Exhibit A.


RESULTS
We reviewed and tested the controls implemented by FTA to prevent and detect
overobligations in the mass transit account for the grants program and concluded
that these controls were properly implemented. FTA obligates grants funding
through its grants management system, called the Transportation Electronic Award
and Management (TEAM) system. TEAM has built-in automated controls to
prevent overobligation by not allowing obligation transactions to be processed
unless the account contains sufficient funds.

FTA utilizes TEAM for budget execution, control of program funds, and tracking
grants to transit agencies; and uses a wire transfer system—the Electronic Clearing
House Operation (ECHO)—for making payments to grantees. An OIG contractor,
KPMG LLP, tested the effectiveness of the controls in TEAM and ECHO. KPMG
tested the following controls and concluded that they were effective in preventing
and detecting overobligations:

• Fund authority (apportionment, allotments) and obligations were accurately
  recorded in TEAM.

• TEAM contained built-in edit checks that prevented obligations from
  exceeding available funds (allotment or suballotment).

• TEAM automatically reduced available funds for the obligated amounts. New
  obligation requests were checked against the reduced fund balance to prevent
  future overobligation.

• Payments made in the ECHO system were properly authorized and accurately
  recorded in both ECHO and the departmental accounting system.

FTA also corrected interface problems between TEAM/ECHO and the
departmental accounting system, called Delphi, for financial reporting. In 2003
we reported that FTA could not electronically process grants transactions into
Delphi and had to manually enter hundreds of millions of dollars of adjustments
into the system. Today, all grants obligation and payment transactions are
                                                                                                                   3


automatically entered into Delphi from TEAM/ECHO without manual
intervention.

Further, FTA and the Office of the Secretary of Transportation (OST) have
implemented multiple review and reconciliation procedures to ensure that the
Report on Budget Execution (SF-133) submitted to the Department of the
Treasury and OMB accurately reflect fund usage activities. In addition to
submitting the reports to OMB and Treasury on a quarterly basis, FTA prepares
monthly budget execution reports for review by OST and reconciliation to
authorized funds in the Apportionment and Reapportionment Schedule (SF-132).
This monthly review helps identify potential overobligation between the quarterly
submissions to OMB and Treasury.

Based on our review and test results, we concluded that FTA has implemented
sufficient controls to prevent and detect overobligations in the mass transit account
for the grants program, as prescribed in its submission to the Congress. 3 FTA
must remain vigilant in exercising these controls.

This concludes our review and we are not making any recommendations. We
appreciate the courtesies and cooperation of FTA and OST representatives during
this audit. If you have any questions concerning this report, please call me at
(202) 366-1496, or Earl Hedges, Program Director, at (410) 962-1729.




3
    On April 25, 2005, FTA sent a letter to the House and Senate Appropriations Committees stating that it had
    implemented multiple review and reconciliation procedures and automated system controls to prevent the recurrence
    of overobliations.
                                                                                4



EXHIBIT A. SCOPE AND METHODOLOGY

To determine the effectiveness of accounting procedures and controls established
by FTA to prevent violations of the Antideficiency Act, we conducted interviews,
observed the daily processes, and tested documentation in the FTA Accounting,
Budget, and Financial Systems Offices. We focused on the procedures and
controls designed to prevent overobligation of agency program funds. We
evaluated the policies and procedures implemented by FTA for its grants
management system Transportation Electronic Award and Management (TEAM),
Electronic Clearing House Operation (ECHO), and the Department’s Budget
Execution Module. We contacted FTA Accounting, Budget, and Financial
Systems Offices and OST’s Office of Financial Management and requested
documentation on any system problems that would prevent full implementation of
its policies.

As part of the audit of the FY 2006 Highway Trust Fund financial statements, the
OIG contractor—KPMG LLP—evaluated the effectiveness of controls for FTA’s
TEAM and ECHO system operations. KPMG met with FTA officials, observed
and tested the apportionments, allotments, reservations/obligations, and
adjustments entered in TEAM and the apportionment values from the approved
SF-132s to ensure that the allotments did not exceed the apportionment value(s)
from the SF-132s. Each process was reviewed and documented.

We conducted this review between June 2005 and April 2007, in accordance with
Generally Accepted Government Auditing Standards prescribed by the
Comptroller General of the United States, and included such tests as we
considered necessary to provide reasonable assurance of detecting abuse or illegal
acts.




EXHIBIT A. Scope And Methodology
                                                     5




EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

FTA
  Office of Accounting, Washington, D.C.
  Office of Budget, Washington, D.C.
  Office of Financial Systems, Washington, D.C.


OST
  Office of Financial Management, Washington, D.C.




EXHIBIT B. Activities Visited Or Contacted
                                                          6



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                   Title

Earl Hedges                            Program Director

Mark Rielly                            Project Manager

Ericka Harris                          Auditor

Gina Sammons                           Auditor




EXHIBIT C. Major Contributors To This Report
